Highlights
Table of Contents




                    Monitoring
                    Post Office
                    Operational
                    Risk in the
Findings




                    Eastern Area
Recommendation




                    Audit Report
                    Report Number
                    DP-AR-14-004

                    August 27, 2014
Appendices




                                      Print
Highlights
Table of Contents




                    Highlights                                                    Background
                                                                                                                                                        We determined that for calendar years
                                                                                  The U.S. Postal Service Office of Inspector General (OIG)            2011 through 2013, refunds increased by
                                                                                  maintains four risk models containing 41 risk elements related      $2 million (from $6.8 million to $8.8 million,
                                                                                  to Post Office™ operations. The OIG uses these risk elements,
                                                                                                                                                     28.6%), while associated revenue decreased
                                                                                  which measure financial, operational, and human resources
                                                                                                                                                      by about $4 million (from $599.7 million to
Findings




                                                                                  activity, to evaluate overall risk and periodically shares the
                                                                                  evaluations with senior U.S. Postal Service officials.                          $595.7 million, 0.7%).
                                 Personnel were not
                                                                                                                                                     Roll over the meter strip to see the breakdown
                                                                                  We judgmentally selected 11 elements from the risk models that
                        monitoring refunds because                                captured the most important aspects of monitoring Post Office
                             they are not required to                             operations, including refunds, cash balances, grievances, and                PVI and Post Office Meter Strip
                                                                                  overtime. Additionally, we selected two important risk elements              Revenue Breakdown
                                do so under current                               related to Post Office box and caller service management that                           CYs 2011-2013
Recommendation




                                                                                  were identified in previous audits as high risk areas. We tested
                               Postal Service policy.                             these elements as they applied to Eastern Area operations for
                                                                                  the period October 1, 2008, through December 31, 2013.
                                                                                                                                                      $600 M
                                                                                  Our objective was to determine whether the Eastern Area             $590 M
                                                                                  effectively monitors risk related to the 13 selected operational
                                                                                                                                                      $580 M
                                                                                  elements.
                                                                                                                                                      $570 M

                                                                                  What the OIG Found
                                                                                  The Eastern Area is effectively monitoring 12 of the 13
Appendices




                                                                                  operational risk elements we reviewed. However, we found area
                                                                                  and district managers do not monitor refunds.

                                                                                                                                                                $599.7        $583.1       $595.7
                                                                                                                                                               Million       Million     Million
                    Monitoring Post Office Operational Risk in the Eastern Area
                    DP-AR-14-004
                                                                                                                                                                      Print                            1
Highlights
Table of Contents




                                                                                  Area and district personnel are not monitoring refunds because    What the OIG Recommended
                                                                                  they are not required to do so under current Postal Service
                                                                                                                                                    We recommended the vice president, Eastern Area Operations,
                                                                                  policy, they have limited resources, and they consider the
                                                                                                                                                    require the area controller and area marketing manager to
                                                                                  financial risk from errors to be low.
                                                                                                                                                    monitor unit-level refunds, and emphasize the need to verify
                                                                                  Without refund monitoring, there is an increased opportunity      refunds during closeout.
Findings




                                                                                  for refund fraud against the Postal Service. Specifically, the
                                                                                  Postal Service issues refunds when labels or meter strips are
                                                                                  damaged or printed in error and voided. Accordingly, a clerk
                                                                                  might affix labels to mail in lieu of stamps and then process a
                                                                                  refund to obtain funds.
Recommendation
Appendices




                    Monitoring Post Office Operational Risk in the Eastern Area
                    DP-AR-14-004
                                                                                                                                                                          Print                                2
Highlights
                    Transmittal Letter


                                                                                  August 27, 2014
Table of Contents




                                                                                  MEMORANDUM FOR:	           JOSHUA D. COLIN
                                                                                  				                       VICE PRESIDENT, EASTERN AREA OPERATIONS

                                                                                                                  E-Signed by Janet Sorensen
                                                                                                             VERIFY authenticity with eSign Desktop



                                                                                  				

                                                                                  FROM: 			                  Janet M. Sorensen
                                                                                  				                       Deputy Assistant Inspector General
                                                                                  				                        for Revenue and Resources

                                                                                  SUBJECT:			                Audit Report – Monitoring Post Office Operational Risk in the
Findings




                                                                                  				                       Eastern Area
                                                                                  				                       (Report Number DP-AR-14-004)

                                                                                  This report presents the results of our audit of the U.S. Postal Service’s Monitoring of
                                                                                  Post Office™ Operational Risk in the Eastern Area (Project Number 13RG037DP001).

                                                                                  We appreciate the cooperation and courtesies provided by your staff. If you have any
Recommendation




                                                                                  questions or need additional information, please contact Kevin H. Ellenberger, director,
                                                                                  Data Analysis and Performance, or me at 703-248-2100.

                                                                                  Attachment

                                                                                  cc: Corporate Audit and Response Management
Appendices




                    Monitoring Post Office Operational Risk in the Eastern Area
                    DP-AR-14-004
                                                                                                                                                       Print                 3
Highlights
                    Table of Contents
                                                                                  Cover
                                                                                  Highlights.......................................................................................................1
                                                                                   Background.................................................................................................1
                                                                                   What the OIG Found...................................................................................1
                                                                                   What the OIG Recommended.....................................................................2
Table of Contents




                                                                                  Transmittal Letter...........................................................................................3
                                                                                  Findings.........................................................................................................5
                                                                                   Introduction.................................................................................................5
                                                                                   Conclusion..................................................................................................6
                                                                                   Monitoring Postage Validation Imprinter and
                                                                                   Post Office Meter Strip Refunds.................................................................6
                                                                                  Recommendation..........................................................................................8
                                                                                   Management’s Comments..........................................................................8
                                                                                   Evaluation of Management’s Comments....................................................8
Findings




                                                                                  Appendices....................................................................................................9
                                                                                   Appendix A: Additional Information...........................................................10
                                                                                     Background ...........................................................................................10
                                                                                     Objective, Scope, and Methodology....................................................... 11
                                                                                     Prior Audit Coverage..............................................................................13
                                                                                   Appendix B: Management’s Comments....................................................14
Recommendation




                                                                                  Contact Information.....................................................................................16
Appendices




                    Monitoring Post Office Operational Risk in the Eastern Area
                    DP-AR-14-004
                                                                                                                                                                         Print                         4
Highlights
                    Findings                                                      Introduction
                                                                                  This report presents the results of our self-initiated audit of the U.S. Postal Service’s Management of Post Office™ Operational
                                                                                  Risk in the Eastern Area (Project Number 13RG037DP001). Our objective was to determine whether the Eastern Area effectively
                                                                                  monitored risk related to the 13 selected operational elements.

                                                                                  The U.S. Postal Service Office of Inspector General (OIG) maintains four risk models containing 41 risk elements related to
                                                                                  Post Office™ operations.1 The OIG uses these risk elements, which measure financial, operational, and human resources activity,
                           We judgmentally selected                               to evaluate the U.S. Postal Service’s overall risks and periodically shares those risk evaluations with senior Postal Service officials.
Table of Contents




                               11 elements from the                               Table 1. Post Office Operational Risk Elements Reviewed
                          risk models to capture the
                                                                                  Risk Elements
                            most important aspects                                  1. Postage  Validation Imprinter (PVI) and Post Office
                                                                                       meter strip refunds
                                      of monitoring                                 2. Office Cash
                                                                                    3. City Delivery Overtime
                             Post Office operations.
                                                                                    4. Clerk Overtime
                                                                                    5. Carriers Arriving After 5 p.m.
                                                                                    6. Street Efficiency
                                                                                    7. Grievances
Findings




                                                                                    8. Unscheduled Leave
                                                                                    9. Wait-Time-in-Line (WTIL)
                                                                                   10. The Voice of Employee (VOE) Index
                                                                                   11. Number of Customer Complaints
                                                                                   12. Inactive Caller Service
                                                                                   13. Closed Post Office Boxes
                                                                                  Source: Risk elements based on OIG analysis of risk models and OIG audit reports.
Recommendation




                                                                                  We judgmentally selected 11 risk elements from the risk models based on capturing the most important aspects of monitoring
                                                                                  Post Office operations, including refunds, cash balances, grievances, and overtime. Additionally, we included two important risk
                                                                                  elements identified in previous audits: Post Office boxes and inactive caller service accounts. We tested these elements as they
                                                                                  applied to Eastern Area operations for the period October 1, 2008, through December 31, 2013. See Appendix A for additional
                                                                                  information about this audit.
Appendices




                                                                                  1	 The OIG has 17 risk models containing 148 risk elements.
                    Monitoring Post Office Operational Risk in the Eastern Area
                    DP-AR-14-004
                                                                                                                                                                               Print                                    5
Highlights                                                                        Conclusion
                                                                                  The Eastern Area effectively monitored 12 of the 13 operational risk elements we reviewed. However, we found the area and
                                                                                  district managers do not monitor PVI and Post Office meter strip refunds. For calendar years (CY) 2011 through 2013, refunds to
                                                                                  customers in the Eastern Area increased by about $2 million (from $6.8 million to $8.8 million, or 28.6 percent), while associated
                                                                                  revenue decreased by about $4 million (from $599.7 million to $595.7 million, or 0.7 percent).

                                                                                  Monitoring Postage Validation Imprinter and Post Office Meter Strip Refunds
                           Employees issue refunds
                                                                                  Managers at the Eastern Area office and the four district offices we visited are not monitoring PVI and Post Office meter strip
Table of Contents




                         when labels or meter strips                              refunds. There is adequate information available in the Enterprise Data Warehouse (EDW) for area and district managers to
                                                                                  monitor unit-level refunds but they are not required to do so under current Postal Service policy. However, their involvement could
                     are damaged or printed in error                              reduce the number of refunds and potential for fraud.
                         and voided. However, these
                                                                                  PVI and Post Office meters produce postage labels that show payment of postage and fees. The Postal Service issues refunds
                           refunds can also indicate                              when labels or meter strips are damaged or printed in error and voided. However, these refunds can also indicate fraud. For
                                                                                  example, a clerk might affix labels to mail in lieu of stamps and then process a refund to obtain funds.
                                 fraudulent activity.
                                                                                  Postal Service policy2 states that field unit managers must review supporting documentation for all entries included on daily
                                                                                  Postal Service Forms 1412, Daily Financial Report, and concur with the overall presentation of the report each day during
                                                                                  closeout. This includes reviewing and validating all documentation provided by clerks for PVI or Post Office meter strip refunds.
Findings




                                                                                  According to the Eastern Area accounting manager, the area does not monitor the refunds because there is no requirement to
                                                                                  do so, the area has limited resources, and it considers the financial risk from errors to be low. In addition, the four district finance
                                                                                  managers said they do not monitor PVI and Post Office meter strip refunds because it is not an area or Sarbanes-Oxley Act
                                                                                  requirement. However, PVI and Post Office meter strip refunds have increased by $2 million (or 29 percent) since
                                                                                  December 2011 and fraud could be a factor. For example, a Postal Service employee at the Hobart, IN, Post Office is accused
                                                                                  of creating fraudulent PVI refunds of more than $13,000 between January and September 2013. The employee allegedly created
                                                                                  false PVI labels for $25 to $50 and then processed refunds for them and kept the money. Monitoring the refund process would
Recommendation




                                                                                  decrease the areas’ and districts’ vulnerability to lost revenue and fraud.
Appendices




                                                                                  2	 Handbook F-101, Field Accounting Procedures, Section 2-4.1, October 2013.
                    Monitoring Post Office Operational Risk in the Eastern Area
                    DP-AR-14-004
                                                                                                                                                                                 Print                                       6
Highlights                                                                        We found that Eastern Area PVI and Post Office meter strip refunds increased by $2 million while the associated revenue
                                                                                  decreased by about $4 million from CYs 2011 through 2013.3 In CY 2013, Eastern Area PVI and Post Office meter strip revenue
                                                                                  was about $595.7 million, with about $8.8 million refunded (1.47 percent). Figures 1 and 2 provide details of annual PVI and
                                                                                  Post Office meter strip revenue and refunds between CYs 2011 and 2013 for the Eastern Area.

                                                                                  Figure 1. PVI and Post Office Meter Strip Revenue Breakdown CYs 2011 Through 2013 (in Millions)

                            Within the Eastern Area,
Table of Contents




                       we found PVI and Post Office
                       meter strip refunds increased
                              by $2 million while the
                      associated revenue decreased
                            by about $4 million from
                            CYs 2011 through 2013.
Findings




                                                                                  Source: Postal Service data EDW Accounting Data Mart (ADM).


                                                                                  Figure 2. PVI and Post Office Meter Strip Refund Breakdown CYs 2011 Through 2013 (in Millions)
Recommendation
Appendices




                                                                                  Source: Postal Service data EDW ADM.




                                                                                  3	 We used calendar years instead of fiscal years because PVI refund data was not available until January 2011.
                    Monitoring Post Office Operational Risk in the Eastern Area
                    DP-AR-14-004
                                                                                                                                                                                                    Print        7
Highlights
                    Recommendation                                                We recommend the vice president, Eastern Area Operations:

                                                                                  1.	 Require the area controller and area marketing manager to monitor unit-level Postage Validation Imprinter and Post Office
                                                                                      meter strip refunds for inappropriate activity and emphasize the importance of verifying refunds during closeout.

                                                                                  Management’s Comments
                                                                                  Area management agreed with the finding and recommendation. Management will post a quarterly report identifying PVI and
                       We recommend management                                    Post Office meter strip refunds by district and unit, comparing the same period last year to the current fiscal year. The Postal
Table of Contents




                                                                                  Service will notify district finance managers on September 2, 2014, of the new report identifying potential units that need to
                      require the area controller and                             emphasize proper closeout procedures.
                            area marketing manager
                                                                                  See Appendix B for management’s comments, in their entirety.
                                to monitor unit-level
                                                                                  Evaluation of Management’s Comments
                        Postage Validation Imprinter
                                                                                  The OIG considers management’s comments responsive to the recommendation and corrective action should resolve the issues
                          and Post Office meter strip                             identified in the report.

                                        refunds for
                              inappropriate activity.
Findings
Recommendation
Appendices




                    Monitoring Post Office Operational Risk in the Eastern Area
                    DP-AR-14-004
                                                                                                                                                                              Print                                  8
Highlights
                    Appendices
                                                                                  Appendix A: Additional Information..............................................................10
                                                                                   Background ..............................................................................................10
                                                                                   Objective, Scope, and Methodology......................................................... 11
                          Click on the appendix title                              Prior Audit Coverage.................................................................................13
Table of Contents




                                                                                  Appendix B: Management’s Comments......................................................14
                           to the right to navigate to
                                the section content.
Findings
Recommendation
Appendices




                    Monitoring Post Office Operational Risk in the Eastern Area
                    DP-AR-14-004
                                                                                                                                                                     Print                       9
Highlights          Appendix A:                                                   Background
                    Additional Information                                        The OIG has 17 risk models containing 148 risk elements. Of these, four models and 41 risk elements measure Post Office
                                                                                  operations. We judgmentally selected 11 risk elements from the risk models based on capturing the most important aspects of
                                                                                  monitoring Post Office operations. Additionally, we included two important risk elements related to Post Office box and caller
                                                                                  service management identified in previous audits as high risk. We tested these elements as they applied to Eastern Area
                                                                                  operations for the period October 1, 2008, through December 31, 2013.4 Table 2 defines the 13 risk elements.

                                                                                  Table 2. Definitions of Post Office Operational Risk Elements Reviewed
Table of Contents




                                                                                  Risk Elements                                       Explanation
                                                                                                                                      Damaged PVI label errors, voids, or refunds as well as damaged Post Office postage
                                                                                  1. PVI and Post Office Meter Strip                  meter strips. This risk element is a component of refunds within the cost and controls
                                                                                  Refunds
                                                                                                                                      model.
                                                                                  2. Office Cash                                      Amount of cash units maintain.
                                                                                                                                      Amount of overtime city delivery operations uses in relation to total city delivery
                                                                                  3. City Delivery Overtime
                                                                                                                                      workhours.
                                                                                  4. Clerk Overtime                                   Amount of overtime clerks use in relation to total clerk workhours.
                                                                                                                                      Percentage of carriers who return to the station after 5 p.m., determined by the total
                                                                                  5. Carriers Arriving After 5 p.m.
                                                                                                                                      number of carriers returning after 5 p.m. divided by the total number of carriers.
                                                                                                                                      Percentage shows how efficiently city carriers are delivering the mail. The percentage
                                                                                  6. Street Efficiency                                is cumulative possible deliveries and total number of actual street delivery workhours on
Findings




                                                                                                                                      city delivery routes divided by street hours.
                                                                                                                                      Complaints filed by Postal Service unions on behalf of bargaining employees involving
                                                                                  7. Grievances                                       any issue in the collective bargaining agreement, including workplace environment
                                                                                                                                      issues.
                                                                                  8. Unscheduled Leave                                Employees with more than 20 unscheduled leave occurrences.
                                                                                  9. WTIL                                             Percentage of customers waiting in line over 5 minutes.
                                                                                                                                      A data collection instrument used to obtain information from career employees on how
                                                                                  10. VOE Index
                                                                                                                                      they feel about the Postal Service.
Recommendation




                                                                                  11. Number of Customer                              Percentage of customer complaints compared to last year.
                                                                                  Complaints
                                                                                                                                      Caller service is a premium service available to those customers (for a fee) who want
                                                                                                                                      to pick up their mail at a designated Postal Service unit. Customers obtain this service
                                                                                                                                      when they routinely receive more mail than can be delivered to the largest installed
                                                                                  12. Inactive Caller Service                         Post Office box or need to collect mail periodically during the day. This mail is separated
                                                                                                                                      for each caller service address the customer pays for. The audit team identified inactive
                                                                                                                                      accounts using the Electronic Uncoded Address Resolution Service system, a
                                                                                                                                      web-based application that works in conjunction with mail processing equipment.
                                                                                                                                      Use of Web Box Activity Tracking System to manage closed Post Office boxes to ensure
                                                                                  13. Closed Post Office Boxes
                                                                                                                                      they are not receiving any more mail.
                                                                                  Source: Risk element explanations obtained from OIG guidance and models; Inactive Caller Service and Closed Post Office box information taken from prior OIG audit reports.
Appendices




                                                                                  4	 Caller and Reserve Service Operations (Report Number DP-AR-13-001, dated January 3, 2013) and Postal Service Management of Closed Post Office Boxes
                                                                                     (Report Number DP-AR-13-007, dated June 18, 2013).
                    Monitoring Post Office Operational Risk in the Eastern Area
                    DP-AR-14-004
                                                                                                                                                                                                                    Print                                       10
Highlights                                                                        Objective, Scope, and Methodology
                                                                                  Our objective was to determine whether the Eastern Area effectively monitored risk related to the 13 selected operational
                                                                                  elements. To accomplish this objective we:

                                                                                  ■■ Visited and conducted interviews and reviewed information at the Eastern Area, the Appalachian, Central Pennsylvania,
                                                                                     Kentuckiana, and Northern Ohio districts; and 16 judgmentally selected post offices. Table 3 shows the names of post offices
                                                                                     we visited.
Table of Contents




                                                                                  ■■ Evaluated whether management in the area, four districts, and 16 post offices we visited have sufficient information to
                                                                                     effectively monitor Post Office operations including office cash, unscheduled leave, VOE index, WTIL, and customer
                                                                                     complaints.

                                                                                  ■■ Reviewed grievance settlement payments for the past 5 years and the process for monitoring informal grievances in Grievance
                                                                                     Arbitration Tracking System (GATS). The audit team did not review data processed through the Eagan payroll (outside of the
                                                                                     GATS), but limited the scope to grievances processed through GATS, which had a majority of the grievance data. We obtained
                                                                                     the data through the following reports:

                                                                                      ●● The Grievance Payout Summary Report, which includes a summary of grievance payouts and adjustments processed
                                                                                         through GATS and outside of GATS.
Findings




                                                                                      ●● The Grievance Payouts Processed by GATS Detail Report, which includes details of individual grievance payouts
                                                                                         processed only through GATS. The detailed report is limited to a 3-month period and, for large amounts of data, the report
                                                                                         must be run by the month.

                                                                                  ■■ Met with the OIG Office of General Counsel to understand any impact on bargaining unit employees and their contracts related
                                                                                     to grievance settlement and threshold reporting.

                                                                                  ■■ Discussed with Eastern Area management and managers in the four districts we visited why they did not use information
Recommendation




                                                                                     to monitor PVI refunds, inactive caller service, and closed Post Office boxes. We were unable to obtain PVI and meter strip
                                                                                     information for refunds issued prior to CY 2011 because they were not accounted for separately, prior to CY 2011, but were
                                                                                     included with other types of refunds. In December 2010, the Postal Service implemented a new policy to record damaged
                                                                                     PVI label errors, voids, or refunds as well as damaged Post Office postage meter strips.5

                                                                                  ■■ Analyzed reports for overtime and city delivery operations used by district management to identify excessive and inconsistent
                                                                                     information and interviewed district managers to evaluate their monitoring process.
Appendices




                                                                                  5	See Postal Bulletin 22299, Handbook F-101 Revision: Handling Postage Validation Imprinter Label and Post Office Postage Meter Voids and Refunds, December 2, 2010.
                    Monitoring Post Office Operational Risk in the Eastern Area
                    DP-AR-14-004
                                                                                                                                                                                                   Print                                            11
Highlights                                                                        Table 3. Post Offices Visited

                                                                                  District                                 Post Offices
                                                                                  Appalachian                              Charleston Main Post Office (MPO)
                                                                                  Appalachian                              Milton Post Office
                                                                                  Appalachian                              South Charleston Branch
                                                                                  Appalachian                              Winfield MPO
                                                                                  Central Pennsylvania                     Downtown Reading Station
Table of Contents




                                                                                  Central Pennsylvania                     Gus Yatron Post Office
                                                                                  Central Pennsylvania                     Harrisburg MPO
                                                                                  Central Pennsylvania                     Lancaster Station
                                                                                  Kentuckiana                              Fort Knox Post Office
                                                                                  Kentuckiana                              Frankfort Post Office
                                                                                  Kentuckiana                              Louisville MPO
                                                                                  Kentuckiana                              Middletown Branch
                                                                                  Northern Ohio                            Beachwood Branch
                                                                                  Northern Ohio                            Cleveland MPO
                                                                                  Northern Ohio                            Mentor Post Office
                                                                                  Northern Ohio                            Willoughby Post Office
Findings




                                                                                   Source: Post offices visited based on OIG analysis.


                                                                                  We conducted this performance audit from October 2013, through August 2014, in accordance with generally accepted
                                                                                  government auditing standards and included such tests of internal controls as we considered necessary under the circumstances.
                                                                                  Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
                                                                                  basis for our findings and conclusions based on our audit objective. We believe that the evidence obtained provides a reasonable
                                                                                  basis for our findings and conclusions based on our audit objectives. We discussed our observations and conclusions with
                                                                                  management on July 24, 2014, and included their comments where appropriate.
Recommendation




                                                                                  We did not assess the reliability of any computer-generated data for the purposes of this report.
Appendices




                    Monitoring Post Office Operational Risk in the Eastern Area
                    DP-AR-14-004
                                                                                                                                                                             Print                              12
Highlights                                                                        Prior Audit Coverage
                                                                                                                                                                                         Monetary Impact
                                                                                  Report Title                          Report Number                   Final Report Date                  (in millions)
                                                                                  Grievance Settlements and                HR-AR-13-008                        9/27/2013                           $3.4
                                                                                  Payments Follow Up
                                                                                  Report Results: Our report found that management has strengthened internal controls and documentation supporting
                                                                                  grievance settlements and payments has significantly improved since our prior audit. We reviewed 600 randomly selected
                                                                                  grievance case files from 10 districts and found that 97 (or 16 percent) did not contain one or more of the required documents.
                                                                                  Of these, 46 did not have specific support for settlements and payments, resulting in about $3.4 million in unsupported
Table of Contents




                                                                                  questioned costs. Management agreed with the recommendation. Management disagreed with the conclusion of a potential
                                                                                  $3.4 million in unsupported questioned costs identified in the report, stating that missing settlement documentation in a case
                                                                                  file does not necessarily correlate with unsupported and questioned costs.
                                                                                  U.S. Postal Service Data                DP-AR-13-004(R)                      4/23/2013                          None
                                                                                  Governance
                                                                                  Report Results: Our report found that the Postal Service could improve management of critical data to assist managers
                                                                                  and employees to achieve strategic and operational goals. We identified 148 data-related issues in OIG reports issued in
                                                                                  fiscal years 2009 through 2012. Although the Postal Service defined a structure for a data governance program in 2003, full
                                                                                  roles and responsibilities were not uniformly adopted across the enterprise. We identified best practices used by companies
                                                                                  with successful data governance programs. Management agreed with the finding and, subsequent to their formal response,
                                                                                  the recommendation in the report.
                                                                                  Data Usage in Retail                     DR-AR-13-002                         3/8/2013                          None
                                                                                  Operations
Findings




                                                                                  Report Results: Our report found that retail operations have a substantial amount of information to manage operations,
                                                                                  including 11 systems/models, 250 reports generated from these systems, and hundreds of data elements that reside in these
                                                                                  systems. We also found that some managers did not know how to use these tools and data to manage operations. Further,
                                                                                  10 prior OIG and Government Accountability Office reports describe numerous data usage, availability, and accuracy issues
                                                                                  involving retail operations. Management agreed with the recommendation.
                                                                                  Delivery Operations Data                 DR-AR-13-001                        10/11/2012                         None
                                                                                  Usage
                                                                                  Report Results: Our report found that city delivery operations have a substantial number of systems, reports, and data to
                                                                                  manage operations. In addition, new supervisors and managers did not always know how to use these tools and data to
Recommendation




                                                                                  manage operations. Further, our assessment of 32 prior delivery reports showed ongoing issues with data usage, availability,
                                                                                  and accuracy. For rural delivery, there is no centralized system containing routes, workhours, and other management
                                                                                  information. Management agreed with the findings and recommendations and took corrective actions.
                                                                                  Survey of Postmasters’
                                                                                  Paperwork and Report                     DR-MA-12-001                        5/25/2012                          None
                                                                                  Requirements
                                                                                  Report Results: Our report found that some postmasters stated they never used certain reports and indicated that
                                                                                  headquarters, area, and district officials required them to prepare additional reports with information already contained in the
                                                                                  daily reports. Excessive reporting requirements reduce the time available to manage daily operations, such as time that could
                                                                                  be spent interacting with carriers and identifying opportunities to improve customer service. Management agreed with the
                                                                                  findings and recommendations and took corrective actions.
Appendices




                    Monitoring Post Office Operational Risk in the Eastern Area
                    DP-AR-14-004
                                                                                                                                                                               Print                                 13
Highlights          Appendix B:
                    Management’s Comments
Table of Contents
Findings
Recommendation
Appendices




                    Monitoring Post Office Operational Risk in the Eastern Area
                    DP-AR-14-004
                                                                                  Print   14
Highlights
Table of Contents
Findings
Recommendation
Appendices




                    Monitoring Post Office Operational Risk in the Eastern Area
                    DP-AR-14-004
                                                                                  Print   15
Highlights
Table of Contents
Findings




                                                                                     Contact us via our Hotline and FOIA forms, follow us on social
                                                                                  networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                                                         or abuse. Stay informed.

                                                                                                        1735 North Lynn Street
Recommendation




                                                                                                       Arlington, VA 22209-2020
                                                                                                             (703) 248-2100
Appendices




                    Monitoring Post Office Operational Risk in the Eastern Area
                    DP-AR-14-004
                                                                                                                                                           Print   16
